5- '• v

/

i,

f;

L iS * £

IN THE

■

r- I";, n

iiiii

SUPREME COURT OF THE UNITED STATES

ALEX ALBERTO CASTRO — PETITIONER
(Your Name)

FILED

VS.

AUG 2 5 2020

UNITED STATES OF AMERICA — RESPONDENT

ffiE'pjfEm°fFcourtLuRsL

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiora ri
without prepayment of costs a nd to proceed in forma pauperis.
Please check the appropriate boxes:
X Petitioner has previously been granted leave to proceed informa jxiuperis in
the following court(s):
United States District Court: for the Western District of Michigan
United States Sixth Circuit Court of Appea ls
__Petitioner has not previously been granted leave to proceed in forma
pauperism any other court.
_ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
X Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
_The appointment was made under the following provision of law:_________
, or
X a copy of the orders of appointment are appended.

Z
(Signature)

%

Case l:17-cr-00193-RJJ ECF No. 801 tiled 04/10/19 PagelD.5614 Page 1 of 1
APPENDIX A
Motion to Proceed
In Forma Pauperis

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

UNITED STATES OF AMERICA,
Plaintiff,

Case No.: 1:17-cr-00193-RJJ
Honorable Robert J. Jonker
Chief United States District Judge

v.
ALEX CASTRO, et al.,
Defendants

ORDER TO PROCEED IN FORMA PAUPERIS
GOOD CAUSE APPEARING THEREFOR, the Court hereby finds that the
defendant, Alex Castro, is indigent and that his appeal is taken in good faith.
Defendant Castro is currently incarcerated and has no income, and lie expects no
income during the next 12 months. Also, the defendant is financially unable to
obtain counsel, and, accordingly, recommends that the Court of Appeals appoint
him an attorney under the Criminal Justice Act (CJA), 18 U.S.C. §3()06(A)(c).
DATED: April 10, 2019

/s/ Robert J. Jonker
HON. ROBERT J. JONKER
Chief United States District Judge
For the Western District of Michigan

*
Case: 19-1166

Document: 11-2

Filed: 04/16/2019

Page: 1

(2 of 2)
APPENDIX B

Case No. 19-1166

Molion to Proceed
In Forma Pauperis

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER

UNITED STATES OF AMERICA
Plain! iff - Appellee
v.
ALEX ALBERTO CASTRO
Defendant - Appellant

Upon consideration of the motion of Mr. Matthew J. Lombard to withdraw as counsel for the
appellant.
It is ORDERED that the motion be and it herehy is GRANTED. The court will appoint
new counsel to represent the appellant under the Criminal Justice Act.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: April 16,2019

Case: 19-1166

Document: 12

Filed: 05/07/2019

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 07, 2019

Mr. Nathan A. Ray
Burdon & Merlitti
137 S. Main Street
Suite 201
Akron, OH 44308
Re: Case No. 19-1166, USA v. Alex Castro
Originating Case No. : 1:17-cr-00193-l
Dear Counsel,
This confirms your appointment to represent the defendant in the above appeal under the
Criminal Justice Act, 18 U.S.C. § 3006A.
You must file your appearance form and order transcript within 14 days of this letter. The
appearance form and instructions for the transcript order process can be found on this court's
website. Please note that transcript ordering in CJA-eligible cases is a two-part process,
requiring that you complete both the financing of the transcript (following the district court's
procedures) and ordering the transcript (following the court of appeals' docketing
procedures). Additional information regarding the special requirements of financing and
ordering transcripts in CJA cases can be found on this court's website at
http://www.ca6.uscourts.gov/criminal-iustice-act under "Guidelines for Transcripts in CJA
Cases."
Following this letter, you will receive a notice of your appointment in the eVoucher
system. That will enable you to log into the eVoucher system and track your time and expenses
in that system. To receive payment for your services at the close of the case you will submit
your voucher electronically via eVoucher. Instructions for using eVoucher can be found on this
court's website. Your voucher must be submitted electronically no later than 45 days after the
final disposition of the appeal. No further notice will be provided that a voucher is
due. Questions regarding your voucher may be directed to the Clerk's Office at 513-564-7078.

Case: 19-1166

Document: 12

Filed: 05/07/2019

Page: 2

Finally, if you become aware that your client has financial resources not previously disclosed
or is no longer eligible for appointed counsel under the Criminal Justice Act, please contact the
Clerk or Chief Deputy for guidance.
Sincerely yours,
s/Ken Loomis
Administrative Deputy
Direct Dial No. 513-564-7067
cc: Mr. Stephen Paul Baker
Mr. Alex Alberto Castro
Mr. Thomas Dorwin
Mr. Charles Anthony Milton

